<html>
<title> - H.R. 3822, THE OIL PRICE REDUCTION ACT OF 2000</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]






             H.R. 3822, THE OIL PRICE REDUCTION ACT OF 2000

=======================================================================

                                 MARKUP

                               BEFORE THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 15, 2000

                               __________

                           Serial No. 106-151

                               __________

    Printed for the use of the Committee on International Relations


        Available via the World Wide Web: http://www.house.gov/
                  international<INF>--</INF>relations

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
67-523 CC                   WASHINGTON : 2000




                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE RADANOVICH, California        JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
     Hillel Weinberg, Senior Professional Staff Member and Counsel
                     Jill N. Quinn, Staff Associate





                            C O N T E N T S

                              ----------                              
                                                                   Page

Markup of H.R. 3822, a bill to reduce, suspend, or terminate any 
  assistance under the Foreign Assistance Act of 1961 and the 
  Arms Export Control Act to each country determined by the 
  President to be engaged in oil price fixing to the detriment of 
  the United States economy, and for other purposes..............     1

                                APPENDIX

Prepared Statements:

The Honorable Steven R. Rothman, a Representative in Congress 
  from New Jersey, statement on H.R. 3822........................    20

Bills and Amendments:

Text of H.R. 3822................................................    22
Amendment in the nature of a substitute offered by Mr. Gilman....    30
Amendment to the amendment in the nature of a substitute offered 
  by Mr. Gejdenson...............................................    37

 
             H.R. 3822, THE OIL PRICE REDUCTION ACT OF 2000

                              ----------                              


                             MARCH 15, 2000

                          House of Representatives,
                      Committee on International Relations,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 11:57 a.m., in 
room 2175 Rayburn House Office Building, Hon. Benjamin A. 
Gilman (Chairman of the Committee) presiding.
    Chairman Gilman [presiding]. The Committee now begins its 
business portion of 3822. The Committee meets in open session, 
pursuant to notice, to consider H.R. 3822, the Oil Price 
Reduction Act. The Committee will come to order. Members, 
please take your seats.
    The Chair now lays the bill, H.R. 3822, before the 
Committee. The Clerk will report the title of the bill.
    [The bill, H.R. 3822, appears in the appendix.]
    Ms. Bloomer. H.R. 3822, a bill to reduce, suspend, or 
terminate any assistance under the Foreign Assistance Act of 
1961 and the Arms Export Control Act to each country determined 
by the President to be engaged in oil price fixing to the 
detriment of the United States economy and for other purposes.
    Chairman Gilman. I have an amendment at the desk which the 
Clerk will report.
    Ms. Bloomer. Amendment in the nature of a substitute 
offered by Mr. Gilman. ``Strike all after the enacting clause 
and insert the following: Section 1, short title. This Act may 
be cited as the Oil Price Reduction''----
    [The amendment of Mr. Gilman appears in the appendix.]
    Chairman Gilman. I ask unanimous consent that the amendment 
in the nature of a substitute be considered as original text 
for the purposes of amendment, that it be considered as having 
been read, and that it be open to amendment at any point. Is 
there any objection? If there's no objection, so ordered.
    I will now recognize myself for 5 minutes on the amendment 
to open this question on the bill.
    Now that our Committee has conducted 2 days of hearings on 
the extent of our energy crisis and the role of OPEC in 
withholding production, and raising oil prices to dangerous and 
unsustainable levels, we now need to take action on the measure 
that's before us today. A balanced, yet forceful measure, it 
will require the Administration to undertake actions leading to 
a reappraisal of our relationship with those countries that it 
determined to be engaged in oil price fixing efforts, and to 
conduct a serious review of those options available to the 
President, including the suspension, the termination of 
reduction of assistance or arms sales to those same countries.
    In the opinion of the Chair, it is vitally important for 
this Committee and for the Congress to take action on a measure 
which can at long last galvanize the Administration into 
action, into action to deal with the cartel of OPEC nations, 
and to provide some leverage to our Secretary of Energy. I 
think leverage that he welcomes.
    For too long, our policy toward the Organization of 
Petroleum Exporting Nations, OPEC, and other major oil 
exporting countries has been full of bluster and empty 
rhetoric, where successive waves of production cutbacks from 
OPEC nations have been met until recently with resounding 
silence, and an indifference from this Administration.
    As the oil prices mount and our consumers, our elderly 
constituents, and our business people across the Northeast and 
the entire country have struggled to pay their energy bills and 
to make ends meet, we have been waiting in vain to see an 
administration strategy on energy take shape. Today, I am 
pleased to announce that our wait is over.
    This Oil Price Reduction Act before us today outlines the 
problems, and calls on the Administration to undertake a number 
of actions and reports that can at long last begin to address 
the root causes of the current energy crisis, and the sky-high 
energy prices. I will be describing the bill as amended by the 
amendment in the nature of a substitute now pending.
    As I am sure all of you are aware, the price of oil 
continues to stay around $32 a barrel, compared to $11 a barrel 
before the OPEC nations stopped producing. Gasoline prices have 
gone up nationwide some 12 cents just in the past 2 weeks. I 
saw this morning a gasoline price of $1.90 gallon.
    Yet there is no consensus within OPEC to increase 
production at their upcoming meeting on March 27. In fact, the 
prevailing view within the cartel is that there is no need to 
increase production because demand in the second quarter will 
fail. But the International Energy Agency disagrees, saying 
that OPEC must come up with immediate increases in production 
on the order of at least 2 million barrels a day to prevent oil 
prices from rising even further next month.
    The measure before us today takes into account the concerns 
of all those who are concerned that we should not impose 
mandatory sanctions on each and every oil producing country in 
a fit of peak or a show of force. Rather, this measure provides 
a framework and the diplomatic blueprint under which the 
President should undertake a series of bilateral and 
multilateral steps leading to the eventual dismantling of the 
OPEC cartel.
    Specifically, this bill states that it should be the policy 
of our nation to take into account the extent to which a major 
oil exporting country engages in oil price fixing in assessing 
the overall state of our relationship with that nation. This 
bill also states that we should work multilaterally with other 
net oil importing countries to bring about the dismantling of 
international oil price fixing arrangements. If this kind of an 
arrangement took place in our own nation, our anti-trust people 
would immediately react and be on their backs.
    Not later than 30 days after the enactment, the President 
is required to report on the overall relationship we have with 
each nation that is a major oil exporter. He shall describe the 
degree of collusion between these countries in fixing prices or 
controlling production. The President shall provide detailed 
information on any of the assistance programs under the Foreign 
Assistance Act and the Arms Export Control Act provided to any 
one of these nations.
    That report would also include a determination by our 
President on whether or not any country is engaged in oil price 
fixing to the detriment of our economy. This bill further 
stipulates that not later than 30 days after the President 
transmits his report to Congress, he should one, undertake a 
diplomatic campaign to convince other nations engaging in price 
fixing that current oil price levels do have a negative effect 
on oil consuming and developing nations. Two, take multilateral 
actions with other major net oil importers with the goal of 
dismantling oil price fixing arrangements. Not later than 120 
days after its enactment, the President is directed to report 
to the Congress on the progress achieved in these diplomatic 
efforts.
    Finally, our bill specifies that in furtherance of these 
bilateral and multilateral efforts, the President is authorized 
to reduce, to suspend or terminate assistance or arms sales to 
any country determined to be engaged in oil price fixing.
    Our text before us now differs in several respects from 
H.R. 2822 as initially introduced. First, it deletes certain 
reporting requirements. Second, it gives the President 
additional time to pursue diplomatic solutions to the current 
energy crisis. Third, it authorizes, but does not mandate--I 
repeat--does not require the President to take action against 
any country determined to be engaged in price fixing to the 
detriment of our economy.
    But finally, it clarifies it is part of a multilateral 
strategy on the part of other major oil consuming countries we 
should begin to take steps to reduce, to suspend, or to 
terminate assistance or arms sales to oil exporters who are 
engaged in price fixing to the detriment of our own economy. In 
short, this approach to the energy crisis and to OPEC in 
particular, is long overdue. It is required to drive home to 
our friends in the Administration that we need immediate action 
in curtailing the power of this oil cartel and in lowering 
prices at the pump and at home to reasonable levels.
    The Chair now recognizes the Ranking Minority Member, Mr. 
Gejdenson.
    Mr. Gejdenson. Mr. Chairman, I have an amendment at the 
desk. The amendment----
    Chairman Gilman. The Clerk will distribute the amendment. 
The gentleman will explain his amendment.
    Mr. Gejdenson. Let me say, Mr. Chairman, this amendment 
simply tries to achieve what you said in your statement. I 
think if the Committee wants to be seen as serious in this 
effort----
    Chairman Gilman. If the gentleman will withhold, the Clerk 
has to read and introduce the amendment.
    Ms. Bloomer. ``Amendment to the amendment in the nature of 
a substitute offered by Mr. Gejdenson. Page 6, strike line 20 
and all that follows through line 6 on page 7.''
    [The amendment of Mr. Gejdenson appears in the appendix.]
    Chairman Gilman. The amendment is considered as having been 
read. Mr. Gejdenson.
    Mr. Gejdenson. Thank you, Mr. Chairman. This amendment 
simply tries to make sure we're achieving what you said in your 
statement. I think that if we are going to be here more than 
just rhetorically, we have to make sure that our policy doesn't 
create this scenario: That in our anger over OPEC's price 
manipulation, that we say fine, we're not going to sell them 
Boeing aircraft, and the result is that they go off and buy 
Airbuses, or something closer to your home, an oil producing 
country which is about to buy General Electric jet engines and 
they are shut off, then they go and buy Rolls Royce or Smecma 
engines.
    So what this language does is provide that either it is 
multilateral--so if you have the other airframe producers, 
essentially if Airbus agrees, then that makes sense. To simply 
say we're not selling them Boeings, that does not make sense. 
If we are the sole proprietor of that technology, that might 
make sense. But it simply makes sure that we are not in kind of 
an exercise that may make us feel good, but actually creates 
unemployment and dislocation in your district and districts 
across the country.
    This amendment is offered in earnest to support your 
efforts. It seems to me unreasonable to say that we would stop 
selling airplanes to Mexico so that they would buy European-
made airplanes, and that somehow is going to have an impact on 
their level of oil production.
    The fact that Mexico buys a non-American airplane, buys an 
Airbus airplane instead of a Boeing airplane doesn't give us 
any leverage over OPEC. The fact that we would in this 
situation say OK, let's get the President to work with Europe 
to say that neither of us would sell airframes, that might make 
sense. That might provide some leverage. But simply having 
countries targeted by sanctions switching General Electric jet 
engines for Rolls Royce jet engines or Boeing-made airframes 
for European-made airframes will not drive down oil prices, but 
will make us less capable of having the resources to buy oil at 
any price.
    Chairman Gilman. Mr. Rohrabacher.
    Mr. Rohrabacher. I rise in opposition to this amendment. My 
good friend, Mr. Gejdenson, has presented his case. Frankly, I 
don't think it washes. Let's take a look at it. Mr. Gejdenson, 
we're not talking about these countries like Mexico buying 
civilian aircraft. We're talking about military aircraft here. 
This isn't a matter if Airbus is going to sell a civilian 
aircraft versus--you know, we're only talking about a military 
aircraft.
    I do not believe that we provide Mexico, for example, with 
military aircraft right now. We may or may not, but the fact 
is, that what we're talking about is a relationship that we 
have with oil producing countries. Whether or not--I would 
doubt very seriously whether or not an oil producing country is 
going to give up their relationship with the United States, 
which is what we're talking about, in the Chairman's bill. They 
are going to have to give up their relationship with the United 
States of America. When we are keeping these people under our 
wing, we're taking care of them, and we're telling them we are 
serious about this extortion and about the fact that they are 
fixing prices and taking money out of the pockets, hundreds of 
dollars out of the pockets of the American people.
    Your amendment, Mr. Gejdenson, would simply leave us--it 
would have no effect. I mean this is making our amendment 
having no effect.
    Mr. Gejdenson. Would the gentleman yield?
    Mr. Rohrabacher. Yes, I would.
    Mr. Gejdenson. So you are saying that we would be able to 
exercise leverage if, instead of buying an F-16 made in the 
United States, they would say fine, we'll buy a Harrier or a 
Mirage or some other country's jet fighter.
    Mr. Rohrabacher. That is correct. That is exactly what I'm 
saying.
    Mr. Gejdenson. And the same thing goes----
    Mr. Rohrabacher. Reclaiming my time. Reclaiming my time. 
That is exactly what I'm saying, is we have a close 
relationship with these countries who are--well, what should I 
say, screwing the people of the United States. That's exactly 
what they are doing right now in terms of oil prices. They have 
a close relationship with us. We provide them their weapons. 
They will not have a close relationship with us if they 
continue screwing the people of the United States of America 
and stealing money out of the pockets of our people by 
involving themselves in price fixing in a price fixing 
conspiracy. Yes, that's what I'm saying.
    I don't believe it will have that result because those 
other countries know that if they buy their jets from some 
other country like Britain, they will have to rely on Britain 
to come over and defend them. They don't want to rely on the 
British. They want to rely on the United States of America. 
What we're saying by Mr. Gilman's proposal is we are telling 
people who rely on us, you are not going to rely on us if you 
are involved in an international price fixing conspiracy to 
rape the consumers of the United States of America.
    So with that, I am sorry that I have to oppose your 
amendment and support Mr. Gilman's initial bill.
    Chairman Gilman. Thank you, Mr. Rohrabacher.
    Mr. Faleomavaega.
    Mr. Faleomavaega. Mr. Chairman, I would like to yield a 
portion of my time to Mr. Gejdenson.
    Mr. Gejdenson. Thank you. You just have to take a little 
focus. Now one, we are not in this alone. The other countries, 
many of the developed countries, are in the same situation, but 
you can go through arms sale after arms sale if that's all you 
are focusing on, and find that the United States is in very 
tough competition with other developed nations that produce the 
very same systems, whether it's jet engines or airframes. Those 
Boeing and the Airbus planes are used in both commercial and 
military uses.
    So again, the Arab Emirates, the Saudis, when they need an 
air transport for their military, the Europeans are knocking 
their door down to sell them Airbus. Your goal won't affect oil 
prices. It will just affect jobs in the United States.
     What my amendment does is take Mr. Gilman's basic bill and 
puts it in a position where we might have an impact on oil. In 
your case, they will say fine, we'll just buy the other 
countries' products.
    Mr. Faleomavaega. Mr. Chairman, reclaiming my time.
    Chairman Gilman. Mr. Faleomavaega.
    Mr. Faleomavaega. I would like to ask a question, Mr. 
Chairman. Are our own oil companies, are their hands clean in 
this whole problem of price gouging as far as the oil is 
concerned?
    Chairman Gilman. I'm sorry, are you addressing a question?
    Mr. Faleomavaega. Yes. I was asking the Chairman.
    Chairman Gilman. Please. I'm sorry. I was interrupted.
    Mr. Faleomavaega. Are our own oil companies, are their 
hands clean in this problem of oil pricing?
    Chairman Gilman. Well, they have not been engaged in 
cutting off production. They want to try and make more and more 
production. It's the oil producing nations that are fixing the 
price, the market price today.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    Chairman Gilman. Mr. Manzullo.
    Mr. Manzullo. I have a question of Congressman Gejdenson. I 
want to vote for a bill that sends a message to these people 
that are raping the American consumer, that are responsible for 
what will probably be an increase in not only consumer prices, 
but also the interest rate as inflation goes up because of 
increased oil prices. But on the other hand, I'm a person who 
is also one of the co-authors of the Crane-Dooley-Manzullo bill 
against sanctions. I don't think that sanctions under all 
circumstances are the best way to go, especially when we're not 
punishing another country by not selling them our goods when 
they can buy those goods from someone else.
    But there is something. At least three of those countries 
are getting foreign aid from us, Indonesia, Nigeria I believe, 
and Russia of course. Plus, we have bailed out Mexico and IMF. 
We tried to bail out Russia and IMF.
    But, Mr. Gejdenson, on your amendment--Sam, are you with 
me? Sam? On your amendment on line 4, where it says ``or 
bilateral efforts when the U.S. is the sole exporter of a 
defense article or defense service,'' does that clause have to 
kick in in order to cutoff aid under the Foreign Assistance 
Act?
    Mr. Gejdenson. I wouldn't think so. I believe not. That is 
not my goal in the amendment. The amendment's goal is exactly 
as you stated. The question is where are you going to point the 
gun to get some effect.
    Mr. Manzullo. I understand. But what I would suggest is 
that perhaps there could be some language.
    Mr. Gejdenson. We would be happy to accept language that 
would allow the Administration to unilaterally, to make it 
clearer that the Administration could unilaterally cutoff 
assistance, because that we have total control over. That has 
an impact on the other countries.
    Mr. Manzullo. My understanding is that the President of the 
United States already has the authority to cutoff----
    Mr. Gejdenson. This language doesn't impede the existing 
authority of the President to on his own cutoff aid to any of 
these countries that are producing oil. He has full authority 
to do that and continues to have that authority with my 
amendment.
    My amendment achieves your goal. It says, let's not point 
the gun at our own head, by saying we're not going to sell a 
product. We should say let's get together with the Europeans 
and then we do have leverage.
    Mr. Manzullo. The big problem I have here is that we have a 
national disgrace going on when the people of the United States 
pay taxes and send hundreds of millions of dollars in foreign 
aid to Russia, which is an oil-producing country, not part of 
OPEC but part of this international conspiracy, that sends 
money to Indonesia. Then they turn right around, they turn 
right around and say oh, I'm sorry, we're going to double the 
prices. On top of that, is the fact that American blood was 
shed.
    Mr. Gejdenson. Pardon?
    Mr. Manzullo. American blood was shed to product Saudi 
Arabia and Kuwait from being overrun by absolute tyranny with 
Saddam Hussein. I think it's wrong for those two countries, 
after what the United States did for them, to enter into an 
international criminal conspiracy. Because if that conspiracy 
were carried on in the United States among American 
manufacturers, those people would be jailed on our anti-trust 
laws. I mean that is not the way you thank the United States 
for the efforts that we did in the Gulf.
    Mr. Gejdenson. Will the gentleman yield?
    Mr. Manzullo. Yes.
    Mr. Gejdenson. I agree completely with the gentleman. I 
think that the gentleman said it, I think better than I did in 
that sense. That this amendment does nothing to prevent the 
President from cutting off aid to these countries, but it does 
allow us to be in a situation where we actually have an impact 
on these countries that we have helped so often rather than 
just hurting our own workers and companies.
    Mr. Manzullo. I know that the Chairman will be opposing the 
amendment. We can't agreed 100 percent on the type of 
sanctions, but I would concur that the best sanction is the one 
that will hurt them, and not simply divert them to go to 
another market to buy the same thing that they can get from us. 
I yield back my time.
    Chairman Gilman. The gentleman's time has expired.
    Mr. Sherman.
    Mr. Sherman. Thank you, Mr. Chairman. Saddam Hussein lost 
the Gulf war so we assume we won it. We didn't. We fought, we 
died. We were in such an incredible rush to spend money and 
lives to help countries that barely mouth pro-American 
sentiments that we forgot to demand that Saudi Arabia, and 
let's face it, that war was defended and saved the lives of the 
Saudi royal family, as well as Kuwait, would withdraw from 
OPEC, would produce oil on an economic basis to the fully 
technical extent. Instead we have this bill before us. I 
support it. It is an important step and I support the 
amendment. The bill will carry some message.
    We're not going to sell weapons to countries so they will 
be less capable of defending themselves, yet we're willing to 
defend them. Right after the Gulf war, the United Arab Emirates 
bought a French-made telecommunications system because they 
know that when you dial 911 on a French communications system, 
you reach the Pentagon because the United States will defend 
just about any country that claims to be our ally without 
remembering what they have done to us.
    So it is important that we try to draw the line. But unless 
we are wiling to withdraw our forces from Kuwait and Saudi 
Arabia, unless we are willing to say that those countries' 
national security is in doubt, then we are simply saying that 
it is the American military and its weapons rather than the 
Saudi military and its weapons provided or sold to them by us 
that will ensure the continued wealth of the Saudi royal 
family.
    I think the amendment is important because if we are going 
to point not a gun, but maybe a little BB pistol at someone, we 
should point it at those who are raising oil prices and not at 
ourselves. So I support the amendment, but let's face it, we 
defended them and we got no guarantees that they wouldn't wage 
war against the American motorists.
    Chairman Gilman. Thank you, Mr. Sherman.
    Mr. Goodling.
    Mr. Goodling. I have one question in relationship to the 
discussion that has been going on. We talk about getting our 
European allies to join with us. They are paying two and three-
times more per gallon than we are. I understand it's not 
because of OPEC nations, I understand it's because of those 
countries themselves. They are shooting themselves in the foot. 
So I'm not quite sure how we get our European allies to join us 
in this effort.
    Mr. Gejdenson. Would the gentleman yield?
    Mr. Goodling. I would be happy to.
    Mr. Gejdenson. I think most of their increased costs is 
actually a function of taxes that they use for public 
transportation. That is a policy decision they make as far as 
the cost. The costs to other countries is still higher as a 
result of the reduction in production.
    Mr. Bereuter. Mr. Chairman.
    Chairman Gilman. Mr. Bereuter.
    Mr. Bereuter. Thank you, Mr. Chairman. I regret missing 
part of the debate here because of a markup in the Banking and 
Financial Services Committee. But I do think, with due respect 
to my colleagues, that much of what we're talking about here is 
much ado about nothing.
    The President has these authorities now. He could be 
exercising them. The real question is to ask why hasn't he or 
why hasn't the Secretary of Energy been negotiating and putting 
more than a little bit of focus on the nations of OPEC, 
particularly those in the Gulf region. That is the question. 
There is nothing damaging about what Mr. Gejdenson does, but he 
doesn't add anything, and neither does the Chairman, with all 
due respect, to the President's powers.
    We are expressing our concern, but the problem is that this 
Administration has not addressed this problem early enough. Now 
we are going to be stuck with higher diesel fuel, gasoline, and 
heating oil prices for at least 4 to 5 months, regardless of 
what is done at this point.
    So ladies and gentlemen, let's admit we're making ourselves 
feel good here perhaps, but that is all it is.
    Chairman Gilman. Thank you, Mr. Bereuter. Any other 
gentlemen seeking recognition on this? Mr. Campbell.
    Mr. Campbell. I would like to engage Mr. Gejdenson on the 
point that Mr. Bereuter raised. At least as I understand it, he 
is right. The President has the authority now.
    Mr. Gejdenson. The President has the authority to do 
everything in this bill now.
    Mr. Campbell. Mr. Bereuter said that too. His criticism was 
of the Chairman's mark as well as your amendment. But if I got 
that wrong, I wanted to know that I was wrong. If that is the 
case, then what difference does your amendment make? I yield to 
the gentleman.
    Mr. Gejdenson. Well, I think what it does is determine 
whether the Committee is going to be taken seriously, and not 
just on this, but in so many other efforts. As an authorization 
committee I think we have a chance. It's clear if we 
unilaterally take these actions the only impact is we have less 
wealth in this country. So what I want to do is get the same 
message to the Administration. Make sure you do things 
unilaterally only when there is an impact.
    Mr. Berman. Would the gentleman yield?
    Mr. Campbell. Fair enough. Thank you. I appreciate your 
response.
    Sure, I'll yield. Go ahead.
    Mr. Berman. Well the question you put to the gentleman from 
Connecticut is somewhat metaphysical. In a world where the bill 
does nothing, the amendment doesn't do much.
    [Laughter.]
    Mr. Campbell. I reclaim. The only fault in your logic is it 
wasn't original. That was what Doug said.
    I yield back. Thank you, Mr. Chairman.
    Chairman Gilman. Thank you. Anyone else seeking recognition 
on this measure? If not, if on the one hand we're telling the 
President to make specific bilateral, diplomatic overtures to 
OPEC members in one section of the bill, let's ensure that the 
President evaluates any decision to terminate, to reduce, or to 
suspend assistance or arms sales to these same nations based on 
the results of these diplomatic efforts. Let's not hamstring 
the President by telling him that he can only act 
multilaterally or only act bilaterally under very limited 
circumstances, particularly if it becomes evident that one or 
more OPEC nations is pushing for more oil production cutbacks 
with the aim of driving prices up even further.
    If one or more oil-consuming countries blocks our 
multilateral efforts, we will then be back to square one and we 
have not accomplished anything. Furthermore, do we really want 
to follow the lead of our friends in Europe where gas prices 
are two to three times higher than in our own nation? How would 
our consumers react if the price of gas was at $3 or $4 a 
gallon, as it is now in France and Germany? Furthermore, the 
President can simply suspend or reduce our aid or arms sales to 
OPEC nations or more likely threaten to reduce or suspend our 
aid or arms sales.
    I ask my colleagues on both sides of the aisle here to 
consider the kind of calls and the kind of entreaties we are 
getting from our constituents saying, ``Well what are you doing 
about these oil prices that are being fixed by the oil 
producing nations, nations who we have helped keep their 
independence, who we saved from destruction by dictatorships? 
What are we doing about it in the Congress?'' This gives you an 
opportunity at least to make some response to put pressure on 
the oil-producing nations to open the spigot, even the Energy 
Secretary, Mr. Richardson, would welcome having this kind of 
teeth as he negotiates with these oil producing nations.
    Accordingly, I ask you to defeat the Gejdenson amendment, 
and support the Gilman bill. If there are no other Members 
seeking recognition----
    Mr. Gejdenson. I move the amendment.
    Chairman Gilman. The question has been made to move the 
amendment. The question is now on the amendment. As many as are 
in favor of the Gejdenson amendment signify by saying aye.
    Those opposed say no.
    In the opinion of the Chair, the noes have it.
    Mr. Gejdenson. Mr. Chairman, I ask for a recorded vote.
    Chairman Gilman. A recorded vote has been requested. All 
those in favor signify by raising your hands, a show of hands 
on recorded vote. A sufficient number. A recorded vote will 
proceed. The Clerk will call the Members.
    Ms. Bloomer. Mr. Gilman.
    Chairman Gilman. No.
    Ms. Bloomer. Mr. Gilman votes no.
    Mr. Goodling.
    Mr. Goodling. No.
    Ms. Bloomer. Mr. Goodling votes no.
    Mr. Leach.
    [No response.]
    Ms. Bloomer. Mr. Hyde.
    [No response.]
    Ms. Bloomer. Mr. Bereuter.
    Mr. Bereuter. Pass.
    Ms. Bloomer. Mr. Bereuter passes.
    Mr. Smith.
    Mr. Smith. No.
    Ms. Bloomer. Mr. Smith votes no.
    Mr. Burton.
    [No response.]
    Ms. Bloomer. Mr. Gallegly.
    Mr. Gallegly. No.
    Ms. Bloomer. Mr. Gallegly votes no.
    Ms. Ros-Lehtinen.
    Ms. Ros-Lehtinen. No.
    Ms. Bloomer. Ms. Ros-Lehtinen votes no.
    Mr. Ballenger.
    [No response.]
    Ms. Bloomer. Mr. Rohrabacher.
    Mr. Rohrabacher. No.
    Ms. Bloomer. Mr. Rohrabacher votes no.
    Mr. Manzullo.
    Mr. Manzullo. Yes.
    Ms. Bloomer. Mr. Manzullo votes yes.
    Mr. Royce.
    Mr. Royce. No.
    Ms. Bloomer. Mr. Royce votes no.
    Mr. King.
    Mr. King. No.
    Ms. Bloomer. Mr. King votes no.
    Mr. Chabot.
    Mr. Chabot. No.
    Ms. Bloomer. Mr. Chabot votes no.
    Mr. Sanford.
    [No response.]
    Mr. Salmon.
    [No response.]
    Mr. Houghton.
    Mr. Houghton. Yes.
    Ms. Bloomer. Mr. Houghton votes yes.
    Mr. Campbell.
    Mr. Campbell. Yes.
    Ms. Bloomer. Mr. Campbell votes yes.
    Mr. McHugh.
    [No response.]
    Mr. Brady.
    Mr. Brady. No.
    Ms. Bloomer. Mr. Brady votes no.
    Mr. Burr.
    [No response.]
    Ms. Bloomer. Mr. Gillmor.
    [No response.]
    Ms. Bloomer. Mr. Radanovich.
    [No response.]
    Ms. Bloomer. Mr. Cooksey.
    Mr. Cooksey. No.
    Ms. Bloomer. Mr. Cooksey votes no.
    Mr. Tancredo.
    Mr. Tancredo. No.
    Ms. Bloomer. Mr. Tancredo votes no.
    Mr. Gejdenson.
    Mr. Gejdenson. Aye.
    Ms. Bloomer. Mr. Gejdenson votes yes.
    Mr. Lantos.
    [No response.]
    Ms. Bloomer. Mr. Berman.
    Mr. Berman. Aye.
    Ms. Bloomer. Mr. Berman votes yes.
    Mr. Ackerman.
    Mr. Ackerman. Yes.
    Ms. Bloomer. Mr. Ackerman votes yes.
    Mr. Faleomavaega.
    Mr. Faleomavaega. Aye.
    Ms. Bloomer. Mr. Faleomavaega votes yes.
    Mr. Martinez.
    [No response.]
    Ms. Bloomer. Mr. Payne.
    Mr. Payne. Aye.
    Ms. Bloomer. Mr. Payne votes yes.
    Mr. Menendez.
    Mr. Menendez. Aye.
    Ms. Bloomer. Mr. Menendez votes yes.
    Mr. Brown.
    Mr. Brown. Yes.
    Ms. Bloomer. Mr. Brown votes yes.
    Ms. McKinney.
    [No response.]
    Ms. Bloomer. Mr. Hastings.
    Mr. Hastings. Aye.
    Ms. Bloomer. Mr. Hastings votes yes.
    Ms. Danner.
    Ms. Danner. Aye.
    Ms. Bloomer. Ms. Danner votes yes.
    Mr. Hilliard.
    Mr. Hilliard. Aye.
    Ms. Bloomer. Mr. Hilliard votes yes.
    Mr. Sherman.

    Mr. Sherman. Aye.
    Ms. Bloomer. Mr. Sherman votes yes.
    Mr. Wexler.
    Mr. Wexler. Aye.
    Ms. Bloomer. Mr. Wexler votes yes.
    Mr. Rothman.
    Mr. Rothman. Yes.
    Ms. Bloomer. Mr. Rothman votes yes.
    Mr. Davis.
    Mr. Davis. Yes.
    Ms. Bloomer. Mr. Davis votes yes.
    Mr. Pomeroy.
    Mr. Pomeroy. Yes.
    Ms. Bloomer. Mr. Pomeroy votes yes.
    Mr. Delahunt.
    Mr. Delahunt. Yes.
    Ms. Bloomer. Mr. Delahunt votes yes.
    Mr. Meeks.
    Mr. Meeks. Yes.
    Ms. Bloomer. Mr. Meeks votes yes.
    Ms. Lee.
    Ms. Lee. Aye.
    Ms. Bloomer. Ms. Lee votes yes.
    Mr. Crowley.
    [No response.]
    Ms. Bloomer. Mr. Hoeffel.
    [No response.]
    Chairman Gilman. The Clerk will call the absentees.
    Ms. Bloomer. Mr. Leach.
    [No response.]
    Ms. Bloomer. Mr. Hyde.
    [No response.]
    Ms. Bloomer. Mr. Bereuter.
    Mr. Bereuter. Pass.
    Ms. Bloomer. Mr. Bereuter passes.
    Mr. Burton.
    [No response.]
    Ms. Bloomer. Mr. Ballenger.
    Mr. Ballenger. No.
    Ms. Bloomer. Mr. Ballenger votes no.
    Mr. Sanford.
    [No response.]
    Ms. Bloomer. Mr. Salmon.
    [No response.]
    Ms. Bloomer. Mr. McHugh.
    Mr. McHugh. No.
    Ms. Bloomer. Mr. McHugh votes no.
    Mr. Burr.
    [No response.]
    Ms. Bloomer. Mr. Gillmor.
    [No response.]
    Ms. Bloomer. Mr. Radanovich.
    [No response.]
    Ms. Bloomer. Mr. Lantos.
    [No response.]
    Ms. Bloomer. Mr. Martinez.
    [No response.]
    Ms. Bloomer. Ms. McKinney.
    [No response.]
    Ms. Bloomer. Mr. Crowley.
    [No response.]
    Ms. Bloomer. Mr. Hoeffel.
    [No response.]
    Ms. Bloomer. Mr. Bereuter votes no.
    Chairman Gilman. Thank you, Doug.
    Has the Clerk completed her tally?
    Ms. Bloomer. Yes.
    Chairman Gilman. The Clerk will report the tally.
    Ms. Bloomer. On this vote, there were 21 ayes and 15 noes.
    Chairman Gilman. We'll now proceed with the underlying 
bill.
    Mr. Ackerman.
    Mr. Ackerman. Did not some Member pass?
    Chairman Gilman. Mr. Bereuter did record his vote in the 
negative.
    Mr. Manzullo. I have a parliamentary inquiry.
    Chairman Gilman. Mr. Manzullo.
    Mr. Manzullo. That is, is it my understanding, Mr. 
Gejdenson, that you are going to polish up the language in that 
amendment so that foreign assistance can be cutoff?
    Mr. Gejdenson. I think that's clear. I think that is 
already clear, but we are happy to work with you if any lawyer 
says there's any other need.
    Mr. Manzullo. Thank you.
    Mr. Gejdenson. Between now and the floor.
    Mr. Berman. Mr. Chairman.
    Chairman Gilman. Mr. Berman.
    Mr. Berman. I move to strike the last word.
    Chairman Gilman. If you'll hold on just a moment. The 
amendment is agreed to. We'll proceed now with the underlying 
measure.
    Mr. Berman.
    Mr. Berman. Something that Mr. Manzullo just said. He 
mentioned Russia before. First of all, he said Russia is part 
of this international criminal conspiracy. I think there may be 
a lot of international criminal conspiracies they are part of, 
but I am not sure there is any evidence they are part of this 
one because my guess is they are raising their production to 
take full advantage of the increase per barrel.
    But the foreign assistance provisions of this bill only 
apply to the OPEC countries, right?
    Mr. Manzullo. No. They apply to the other oil producing 
nations. There are only four. It's Mexico, Norway, Oman, and 
Russia.
    Mr. Berman. The only what?
    Mr. Manzullo. There are only four.
    Mr. Berman. There are only four?
    Mr. Manzullo. Four non-OPEC oil-producing nations that are 
involved in this. That's Mexico, Norway, Oman and Russia, and 
Angola.
    Mr. Berman. Is there a nexus between those countries being 
oil producing and having to prove?
    Mr. Manzullo. If they all got together in the same room, 
because the OPEC agreement reaches out to--the OPEC people 
reach out to non-OPEC members.
    Mr. Delahunt. Would the gentleman yield?
    Chairman Gilman. Are there any other inquiries?
    If there are no further amendments, Mr. Delahunt? We're on 
the main bill now. Yes, Mr. Delahunt.
    Mr. Delahunt. Thank you, Mr. Chair. I just want to make an 
observation, that I supported the Gejdenson amendment somewhat 
reluctantly because I believe that we are acting prematurely. 
The Secretary testified here a short time ago, indicated that 
he has been all over the world, has initiated discussions and 
consultations with oil ministers everywhere. I posed a question 
when I asked him what he anticipated in terms of what occurs on 
March 27th. He said, ``I am guardedly optimistic.''
    For those of my colleagues who were present during that 
questioning, I further asked him, in terms of a scale to ten, 
about his gauge in terms of his guarded optimism. He indicated 
nine. I think that we are on the border of acting irresponsibly 
here because hopefully come March 27th, there will be an 
announcement that the OPEC nations have increased adequately 
production.
    While I supported the amendment, I did so reluctantly. I 
think we should have given them an opportunity to act.
    Mr. Berman. Would the gentleman yield?
    Chairman Gilman. Will the gentleman yield a moment?
    Mr. Delahunt. I yield to the Chairman.
    Chairman Gilman. Mr. Delahunt, what we are concerned about, 
and yes you are correct, that the Secretary did indicate he was 
optimistic. However, they will not meet until March 27th. The 
information we're receiving that they may increase it to some 
extent but not to meet our full demand. If they do act without 
regard to the full demand, it will take until mid-summer before 
we help our oil nations.
    Mr. Delahunt. Reclaiming my time, and I respect the 
comments by the Chair, but today is March 15th. March 27th is 
less than 2 weeks away. I think that we have acted prematurely, 
but so be it.
    Chairman Gilman. Mr. Rohrabacher.
    Mr. Rohrabacher. Mr. Chairman, just a very quick comment on 
this. I know we have to move. Mr. Bill Richardson came here and 
testified, yes. My friend from Massachusetts has pointed out 
that he was optimistic. But let us be very frank. This 
Administration, including Mr. Richardson, were supposed to have 
been on top of this problem. It is on us now because of 
inaction by this Administration when OPEC was taking its moves, 
making its moves that were clearly going to affect us in a 
detrimental way.
    This price increase didn't just happen over night. It 
happened because this Administration was asleep at the switch. 
This bill today, with the leadership of our Chairman, is to 
give the Administration notice that we expect them to act on 
this country's behalf, and that all this money being sucked out 
of the pockets of our consumers is not going to be tolerated.
    Mr. Berman. Would the gentleman yield?
    Mr. Rohrabacher. I would yield back my time to the 
Chairman.
    Chairman Gilman. The Chair would just like to note we have 
a quorum. We have a roll call on. We would like to proceed to a 
vote if everyone would cooperate.
    Without any objections, if there are no further amendments.
    Mr. Menendez. Mr. Chairman? Mr. Chairman?
    Chairman Gilman. Who is seeking recognition?
    Mr. Menendez. I have been seeking--over here.
    Chairman Gilman. Would you please be brief so we can get to 
a vote?
    Mr. Menendez. Well, Mr. Chairman, I have been here all 
morning. This is something that is important to my district, as 
I'm sure many others. I think we have 15 minutes left. I will 
try to make it brief.
    No. 1, I plan to support the bill, but I wanted to point 
out a couple of items. No. 1 is section 6, that talks about 
diplomatic efforts would lead us to believe that no diplomatic 
efforts have taken place. In fact, we know from the Secretary's 
testimony as well as from reports from the Administration that 
diplomatic efforts have taken place. We expect those diplomatic 
efforts on the 27th to yield a positive result. So even though 
I am going to vote for this legislation, I don't want section 6 
to suddenly become the panacea for something that's already 
been done.
    Last, I would remind my colleagues that now everybody wants 
to make a big fuss because the prices are up. But when we were 
seeking support for alternative fuel research, many of my 
colleagues, particularly on the other side of the aisle, would 
not support it. When we had the Alaskan oil being--many of us 
opposed the exploration of the Alaskan oil, particularly since 
Republicans moved to have it to be sold to Japan, millions of 
barrels to be sold to Japan. When we were seeking to place oil 
in the Strategic Petroleum Oil Reserve when prices were low, 
there was no support for that.
    So let us remember the balance here, and let this be a 
lesson that our energy policy needs to be engaged all of the 
time, not just now. There is enough finger pointing here to go 
around for everybody.
    I yield back the balance of my time.
    Chairman Gilman. Thank you very much.
    Mr. Rothman.
    Mr. Rothman. Mr. Chairman, we would like the unanimous 
consent to place my remarks in the record.
    Chairman Gilman. Without objection.
    [The statement of Mr. Rothman appears in the appendix.]
    Chairman Gilman. Mr. Brady.
    Mr. Brady. Thank you, Mr. Chairman. Thank you for raising 
this issue. Coming from an oil producing State like Texas, you 
would expect me to oppose this legislation. The fact of the 
matter is that boom and bust cycles aren't healthy for America. 
They are unhealthy for the energy industry. The energy industry 
has paid a pretty steep price, 100,000 jobs in America just 
this last decade. I don't know why we are sanctioning the oil 
producing countries. We ought to be sanctioning the White House 
for hiding behind their desks the past 7 years while our 
dependence on foreign oil has risen dramatically to more than a 
half.
    We are negotiating with OPEC today. It won't work. It's 
like a drug addict negotiating with its dealer. This solution 
is not to lower the price of the product. It is to kick the 
habit. The hard truth is, America is addicted to foreign oil. 
The only way we are going to get this monkey off our back is to 
create a sensible energy policy that creates responsible 
production in the U.S.
    Last week, Mr. Chairman, the President called on oil 
producing countries to boost production because it would help 
make prices stable. My question is, why don't we include the 
United States? We are at the lowest production of oil in the 
United States in the past half a century, yet the cleanest coal 
in the lower U.S. 48 States have been locked up. The northern 
Alaska reserve, that tiny one-tenth of 1 percent would replace 
all the Saudi oil to America for the next 30 years. We have 
withdrawn 80 percent of our continental shelf for leasing. 
Instead, we have focused on discouraging consumers from buying 
Ford Explorers and encouraging them to buy lower, longer-life 
light bulbs.
    Chairman Gilman. Thank you, Mr. Brady.
    Mr. Brady. Thank you, Mr. Chairman.
    Chairman Gilman. If there are no further amendments, 
without objection, the previous question is ordered on the 
Gilman amendment in the nature of a substitute as amended. The 
question is on agreeing to the Gilman amendment in the nature 
of a substitute. All in favor of the Gilman amendment in the 
nature of a substitute as amended, say aye.
    Opposed, say no.
    The amendment is agreed to.
    The gentleman from Nebraska, Mr. Bereuter is recognized to 
offer a motion.
    Mr. Bereuter. Mr. Chairman, I move the Committee report the 
bill H.R. 3822 as amended with the recommendation that the bill 
as amended do pass.
    Chairman Gilman. The question is on the motion to report 
the bill as amended favorably to the House. All in favor 
signify by saying aye.
    Opposed, say no.
    A quorum being present, the motion is agreed to.
    Without objection, the Chairman is authorized to make 
motions under Rule 20 relative to going to conference on this 
and companion bill. Without objection, the chief of the staff 
is authorized to make technical, conforming, grammatical 
changes. We intend to file our report. Mr. Goodling has asked 
for the right to file views on the bill.
    The Committee stands adjourned.
    [Whereupon, at 12:44 p.m., the Committee was adjourned, 
subject to the call of the Chair.]
      
=======================================================================




                            A P P E N D I X

                             March 15, 2000

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T7523.001
    
    [GRAPHIC] [TIFF OMITTED] T7523.002
    
    [GRAPHIC] [TIFF OMITTED] T7523.003
    
    [GRAPHIC] [TIFF OMITTED] T7523.004
    
    [GRAPHIC] [TIFF OMITTED] T7523.005
    
    [GRAPHIC] [TIFF OMITTED] T7523.006
    
    [GRAPHIC] [TIFF OMITTED] T7523.007
    
    [GRAPHIC] [TIFF OMITTED] T7523.008
    
    [GRAPHIC] [TIFF OMITTED] T7523.009
    
    [GRAPHIC] [TIFF OMITTED] T7523.010
    
    [GRAPHIC] [TIFF OMITTED] T7523.011
    
    [GRAPHIC] [TIFF OMITTED] T7523.012
    
    [GRAPHIC] [TIFF OMITTED] T7523.013
    
    [GRAPHIC] [TIFF OMITTED] T7523.014
    
    [GRAPHIC] [TIFF OMITTED] T7523.015
    
    [GRAPHIC] [TIFF OMITTED] T7523.016
    
    [GRAPHIC] [TIFF OMITTED] T7523.017
    
    [GRAPHIC] [TIFF OMITTED] T7523.018
    
  

                                <greek-d>

</pre></body></html>
